                                         ADVISORY




 INDIAN LAND CONSOLIDATION
 ADVISORY
 NEED FOR AN APPRAISAL TRACKING SYSTEM




Report No.: WR-EV-OST-0010-2011            July 2011
              OFFICE OF
              INSPECTOR GENERAL
                  .uE:PAR MfN          r OF THE INTERIOR

                                                                                              JUL· 1 8 2011
Memorandum

To:            Meghan Conklin
               Associate Deputy Secretary

From:          Kimberly Elmore j.~' 11 L~ t"'r               t (.-
                                                         H (.--
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Advisory - Indian Land Consolidation: Need for an Appraisal Tracking System
               Report No. WR-EV-OST-00IO-2011

        This advisory is part of our ongoing effort to monitor and evaluate the U.S. Department
of the Interior' s (Department) upcoming endeavor to implement the land consolidation portion of
the Cabell settlement. Although the Cabell settlement was approved by Congress and signed into
law in December 2010, it did not become final until the court approved it in June 2011. In the
interim, the Department has been conducting tribal consultations regarding Indian land
consolidation. As a result, these advisories provide information to the Department in advance of
implementation efforts. We conducted our work in accordance with the Quality Standards for
Inspection and Evaluation issued by the Council of the Inspectors General on Integrity and
Efficiency.

        We interviewed officials at the Office of the Special Trustee for American Indians (OST),
Office of Appraisal Services (OAS), and the Department' s Office of Valuation Services.
Currently, OAS regions use various methods to track appraisal requests. These methods range
from basic spreadsheets to the Indian Trust Appraisal Request Tracking System (ITARS). OAS
implemented IT ARS as an attempt to create a central appraisal request tracking system. The
regions never fully adopted IT ARS , however, partially because of privacy issues related to the
lack of access controls. Consequently, the regions do not use a centralized tracking system.

        OAS initially considered two options for their centralized appraisals tracking system: Use
the existing Appraisal Request and Review Tracking System (ARRTS) or create an in-house
system. ARRTS is currently used by the Office of Valuation Services for requests from other
Department bureaus for appraisals on non-Indian lands. ARRTS , however, is currently
undergoing a major revision due to organizational changes at the Office of Valuation Services.
As a result, ARRTS would need further modification to meet the needs of OAS. Due to time and
financial constraints of implementing ARRTS , as well as limitations of the system, OAS is now
moving forward with its second option, to develop its own system for tracking appraisal requests.

      This in-house system, referred to as the Office of Appraisal Services Information System
(OASIS), will track appraisal requests and allow OAS management to produce standard
management reports. OASIS will also store land characteristic and valuation data, such as



                        Office of Audits, Inspections, and Evaluations   I Washington,   DC
average price per acre for specific land types, as well as performance data for regions and
appraisers. Although not a requirement of the new system, appraisers will have the option to use
OASIS to help generate appraisal reports.

        When selecting a central appraisal request tracking system, OAS considered the need for
better access controls. One of the major complaints of previous systems was the ability for a
system user to view all appraisal request activity regardless of whether it occurred within the
user’s reservation or region. With OASIS, users will be able to view only the appraisal requests
for their tribe or region. While OASIS is an Internet-based system, OAS is identifying alternative
methods for submitting appraisal requests for those tribes with limited Internet access.

        In our January 2011 report, “Coordination of Efforts to Address Indian Land
Fractionation” (Report No. WR-EV-BIA-0002-2011), we found that OAS was unable to keep up
with its appraisal workload. In January 2011, the 12 OAS regions had over 1,000 reports past
due and more than 2,500 open appraisal requests.

        The Appraisal Foundation (Foundation) 1 also reported significant appraisal backlogs in
its 2003 evaluation of OAS operations. In its report, 2 the Foundation found it challenging to
track the large number of appraisal assignments in each region. It recommended the use of a
centralized appraisal request tracking system as one way for OAS to help address the appraisal
backlog. Specifically, the Foundation recommended that OAS implement an appraisal tracking
system for use nationwide that is practical, functional, and effective for use in each regional
appraisal office. It further recommended that OAS design the appraisal tracking system to allow
the Director of OAS to periodically download tracking information.

        We agree with the Foundation’s recommendation and OAS’s need for a central appraisal
request tracking system, as well as its belief that OAS should develop this system using
substantial input from regional appraisers. In early 2011, OAS presented a brief overview of
OASIS to OST leadership followed by a presentation to OAS’s regional supervisory appraisers.
We contacted several regional supervisory appraisers who said that they recognized the need for
a centralized tracking system and were generally supportive of efforts to implement OASIS.
Some noted that they would like the opportunity for all OAS appraisers to provide additional
input on OASIS prior to live testing in the regions.

        While OASIS is viewed by OAS as a workable solution to their central appraisal request
tracking needs, some have expressed interest in possibly implementing an appraisal module
within the Trust Asset and Accounting Management System (TAAMS). In our January 2011
report, we also found that it can take extended periods of time to produce TAAMS reports. The
increasing number of TAAMS users, and issues with TAAMS infrastructure, cause these delays.
We were also told that it can be costly to obtain custom reports and training.



1
  Established by the appraisal profession in the United States in 1987, the Appraisal Foundation is a not-for-profit
organization dedicated to the advancement of professional valuation.
2
  The Appraisal Foundation, Evaluation of the Appraisal Organization of the Office of Special Trustee for American
Indians, Office of Appraisal Services, (August 29, 2003).

                                                         2
Recommendations

       1. Implement a centralized appraisal tracking system for OAS that best positions the
          organization to meet its current and expected appraisal workload.

       2. Solicit feedback from all OAS appraisers on the selected appraisal tracking system
          prior to testing of the system in the regions.

       3. Consider issues identified in our January 2011 report when considering any TAAMS
          modifications for appraisals.

        Please provide a written response to this advisory within 30 days after the conclusion of
the Department’s tribal consultations. The response should detail the Department’s corrective
action plan, as well as targeted completion dates and title(s) of the official(s) responsible for
implementation. Information contained in this advisory will be included in our semiannual report
to the Congress. Please contact me at 202-208-5745 if you have any questions.

cc:    Deputy Secretary, U.S. Department of the Interior
       Assistant Secretary – Indian Affairs
       Principal Deputy Special Trustee, Office of the Special Trustee for American Indians
       Director, Bureau of Indian Affairs
       Audit Liaison, Office of the Secretary
       Audit Liaison, Indian Affairs




                                                3
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
